                OFFICIAL USE ONLY


                  eeOFF




         U.S. Department of Energy
         Office of Inspector General
         Office of Audit Services




Special Inquiry
Review of Allegations Regarding Hiring
and Contracting in the Office of Energy
Efficiency and Renewable Energy




OAS-SR-10-04                           September 2010
                OFFICIAL USE ONLY
                                  Department of Energy
                                    Washington, DC 20585
                                       September 22, 2010


MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman
                         Inspector General
SUBJECT:                 INFORMATION: Special Inquiry: "Review of Allegations Regarding
                         Hiring and Contracting in the Office of Energy Efficiency and
                         Renewable Energy" Report Number: OAS-SR-10-04

INTRODUCTION

In April 2010, the Office of Inspector General (OIG) began receiving allegations concerning
hiring and contracting practices within the Office of Energy Efficiency and Renewable Energy
(EERE). These allegations included:

   1. Improprieties in the hiring of a contract employee to a senior Federal career position,
      including concerns that the contract employee was pre-selected or otherwise had an
      unfair advantage;

   2. Performance of inherently governmental duties, including the supervision of Federal
      employees, by the same contract employee; and,

   3. Award of work to a contractor without adequate competition.

Although a number of other allegations with similar concerns were received, the OIG chose to
focus its attention on those outlined above because of their overall importance to the integrity of
the EERE mission, especially its role in the implementation and execution of the Department of
Energy's responsibilities under the American Recovery and Reinvestment Act of 2009 (Recovery
Act). Consequently, we initiated a fact-finding inquiry into these matters. To this end, we
interviewed 31 current and former Department employees, including issue area specialists, and
identified and reviewed applicable Federal regulations. We also analyzed over 250,000 emails,
the results of which yielded evidence, presented in our report, pertaining to the specific
allegations included in the scope of our inquiry. Our analysis of emails also disclosed another
area of concern that is outlined in this report.

RESULTS OF SPECIAL INQUIRY

We concluded that the allegation related to pre-selection of a senior EERE official was
substantiated. Our inquiry identified a number of actions by management officials that
contributed to a concern expressed by many in the EERE career workforce that the contract
employee in this case performed a number of inherently governmental functions. We were
unable to substantiate the allegation regarding lack of adequate competition in contractor work
awards. We did, however, find that the contract employee developed a statement of work that
was tasked to the contractor for which he worked. This apparent conflict provided the
opportunity for inappropriate manipulation of contract taskings to the financial benefit of the
contractor's employer. While this potential existed, we did not substantiate that the related work
was actually overstated.

                                Federal Position Selection Process

We identified a number of circumstances surrounding the hiring action that were troubling,
actions that understandably led the complainants to believe, and for us to conclude, that the
contract employee was, in fact, pre-selected. Evidence gathered from a number of sources,
including the Federal selecting official, demonstrated that the contract employee was granted
preferences and advantages that were not granted to other applicants. For example:

       The selecting official expressed specific intentions to make the contract employee a
       Federal employee several months before the contract employee's eventual appointment to
       the position

       The contract employee was provided specific knowledge about the applicable position in
       advance of the general public. The contract employee actively participated in key aspects
       of the hiring action such as preparing the Position Description and developing questions
       to be answered during the application/interview process for the position for which the
       contract employee was ultimately hired; and,

       A memorandum justifying the selection of the contract employee for a Federal position
       stated that the contract employee was currently serving as the selecting official's deputy;
       was responsible for all operations in the program; and, oversaw all project
       implementation for the program.

When interviewed, the selecting official told us that the contract employee was not pre-selected
and that a number of other candidates were considered. The selecting official ultimately
acknowledged that the contract employee's involvement in the hiring action could be seen as an
unfair advantage and expressed the view that, in hindsight, the contract employee should have
been excluded from any action associated with the hiring process.

Based on the fact pattern in this case, we are referring the matter regarding pre-selection to the
U. S. Special Counsel (Special Counsel) for a determination as to whether prohibited personnel
practices should be prosecuted under the Special Counsel's authority. Additionally,
complainants and other witnesses raised concerns about the selection of other contractor
employees by the same selecting official for Federal positions within EERE. We are forwarding
these matters to the Special Counsel as well.




                                                2
                Contract Employee Performing Inherently Governmental Duties

We found conflicting evidence regarding complaints that the contract employee improperly
performed inherently governmental duties. As with the selection process, we identified factors
that contributed to a belief by the complainants and others that the contract employee was
effectively functioning as a Federal employee. In particular, our inquiry established that the
contract employee was actively involved in the management of the applicable EERE program by
participating in high level management meetings where policy and strategic decisions were
made; assisting in the development and implementation of policy-oriented program goals;
participating actively and intimately in the hiring process for new employees; and, developing
performance standards for Federal employees. We placed substantial weight on the fact that the
individual was commonly referred to as the "deputy" by the Acting Program Manager, as noted
previously. All-in-all, these circumstances gave rise to a belief held by many career EERE
employees that the contract employee was performing inherently governmental duties.

In responding to our interview questions, various witnesses, including members of EERE senior
management, expressed a very different view. They asserted that the contract employee was
providing consulting services and all program decisions were made by Federal employees; tasks
performed by the contract employee were ultimately approved by a Federal employee; and, any
"direction" the contract employee communicated to Federal employees was from the Acting
Program Manager rather than the contract employee. However, it was clear that the extent of the
contract employee's responsibilities contributed to the perception that the complainants and
witnesses had concerning inherently governmental duties.

                Improper Awarding of Work to a Contractor without Competition

We were unable to substantiate the allegation that work was improperly awarded to a contractor
without competition. Evidence disclosed that the questioned work was awarded to a current
contractor through the modification of existing task orders. The work appeared to be within the
scope of the existing contract and the decision to task the work to the contractor was a matter
within management's discretion. We did, however, identify an internal control weakness that
permitted the subject of the allegation regarding pre-selection to develop a statement of work for
additional work that was ultimately assigned to the contractor for which the employee worked.
This control weakness provided the opportunity for the contract employee or similarly situated
employees to manipulate contract taskings to the financial benefit of their own employer.
However, we did not identify any inappropriate escalation of work in this case.

                                          Other Matters

In addition to the specific allegations addressed during our inquiry, we also found evidence of a
disturbing practice related to Federal participation in support service contractor hiring.
Specifically, we identified situations in which EERE officials requested contractors to hire
specific individuals and assign them to support its contracts. In other cases, EERE requested that
contractors hire individuals until they could be brought on as permanent Federal employees. In
some instances, the individuals were actually hired by the support service contractor, while in
another, the contractor resisted attempts by Federal officials to specify which employees it hired.

                                                 3
In a May 2010 email, a procurement official, after learning of these practices, cautioned a senior
EERE manager that staffing is the responsibility of the prime contractor and that Federal
employees should not participate in interviewing potential contract employees.

WORK ATMOSPHERE

Our inquiry focused on identifying the facts surrounding specific allegations concerning an
individual contract employee and contractor. In doing so, we were mindful that these activities
occurred during EERE's early efforts to implement the Recovery Act. The Recovery Act
significantly expanded EERE programs and funding, resulting in the need to immediately hire a
large number of Federal employees and expand the use of contractors in implementing EERE's
programs. Several witnesses discussed the pressure EERE was under to implement the Recovery
Act programs and expressed their belief that this pressure led to the Program's reliance on less
than optimal Federal hiring and contracting practices. Additionally, the selecting official in this
case was new to the Federal government and claimed to be unfamiliar with Federal rules and
regulations for hiring of employees.

Because of the significance of the Recovery Act and the relevance of the Department's hiring and
contracting practices to the success of the Recovery Act's energy components, the Department
should take prompt action to ensure that the issues raised in our report are thoroughly reviewed
and addressed. We have made several recommendations designed to help improve the integrity
of the hiring and contractor management process. Due to the nature of this report, it was not
formally coordinated with management prior to release.

This memorandum serves as a public Executive Summary of this report. The detailed results of
this Special Inquiry have been published in a separate, non-public report to management. Any
request for release of the details in this matter will be handled by the OIG in accordance with the
Freedom of Information Act (Title 5, U.S.C. Section 552) and the Privacy Act (Title 5, U.S.C.
Section 552a).

cc:   Deputy Secretary
      Chief of Staff
      General Counsel
      Chief Human Capital Officer
      Director, Office of Management




                                                 4
                                                                    IG Report No. OAS-SR-10-04

                               CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones (202) 586-7013.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
